CERTIFICATE OF COMPLIANCE
JAMES PETER SABATINO, Petitioner,
v.
UNITED STATES OF AMERICA, RESPONDENT.
As required by Supreme Court Rule 33.1(h), I hereby certify that the
Petition for Certiorari contains 5,082 words, excluding the parts of the
petition that are exempt by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 19th day of February, 2021.
By: /s/ Israel Jose Encinosa
Israel J. Encinosa, Esq.
Florida Bar No. 435007
Attorney for the Petitioner
9100 S. Dadeland Blvd, Suite 1500
Miami, FL 33156
Tel. (786) 497-7241
E-mail: encilaw@aol.com

